No. 20-1110
IN THE

Supreme Court of the United States
SANDOZ INC., SANDOZ INTERNATIONAL GMBH,
SANDOZ GMBH,
v.

Petitioners,

IMMUNEX CORP., AMGEN MANUFACTURING, LTD.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Federal Circuit
CERTIFICATE OF SERVICE
I, William M. Jay, counsel of record and a member of the Bar of this Court,
certify pursuant to Supreme Court Rules 29.3 and 29.5 that I have, this 26th day of
April 2021, served the Reply Brief for Petitioners upon each party separately
represented in this proceeding by e-mail (pursuant to the parties’ prior agreement)
to counsel of record at the address listed below:
CONSTANTINE L. TRELA, JR.
SIDLEY AUSTIN LLP
Bank One Plaza
1 South Dearborn Street
Chicago, IL 60603
ctrela@sidley.com
In addition, pursuant to Supreme Court Rules 29.3 and 29.7, I have caused
electronic copies of all documents to be filed with the Clerk.
I further certify that all persons required to be served have been served.

April 26, 2021

____________________________
WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N Street, N.W.
Washington, DC 20036
wjay@goodwinlaw.com
(202) 346-4000
Counsel of Record for Petitioners

